Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




     OHIO EXCEEDED THE
5-PERCENT LIMIT FOR CLAIMING
  CHILD CARE DEVELOPMENT
    FUND ADMINISTRATIVE
       EXPENDITURES


 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General

                                                     November 2013
                                                     A-05-13-00014
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The State agency exceeded the 5-percent limit for claiming Child Care and
 Development Fund administrative expenditures by a total of $3,164,630 as a result
 of improperly claiming cost pool expenditures as quality activities.


WHY WE DID THIS REVIEW

Under the Child Care and Development Fund (CCDF) program, States must spend no more than
5 percent of their total CCDF funding on administrative expenditures. In a previous audit, we
found that the Ohio Department of Job and Family Services (State agency) may have improperly
claimed administrative expenditures. This issue was outside the scope of the previous audit and
is the focus of this review.

Our objective was to determine whether the State agency exceeded the 5-percent limit for
claiming CCDF administrative expenditures.

BACKGROUND

The CCDF program consists of discretionary, mandatory, and matching funds for direct services,
nondirect services, “quality activities,” and administration costs. The program is administered at
the Federal level by the U.S. Department of Health and Human Services, Administration for
Children and Families (ACF). Discretionary and mandatory funds are 100-percent federally
funded; matching funds are based on the State’s Federal medical assistance percentage, which
varies depending on the State’s relative per capita income.

The CCDF is the primary Federal program specifically devoted to providing families with
childcare subsidy and supports to improve quality of care. Under the CCDF program, States
have considerable latitude in implementing and administering their childcare programs. Each
State must develop, and submit to ACF for approval, a State plan that identifies the purpose for
which CCDF funds will be expended for quality activities. CCDF quality activity expenditures
must be used for activities that improve the availability and quality of childcare and may not be
used for the overall administration of the program. Administrative expenditures include salaries
and related costs of the staff of the lead agency or other agencies engaged in the administration
and implementation of the program, among other expenditures. States must spend no more than
5 percent of their total CCDF funding on administrative expenditures.

In addition, States are required to report expenditures of quality activities, administrative
activities, and nondirect services on the quarterly Child Care and Development Fund ACF-696
Financial Report (ACF-696 report), which is a cumulative report for the Federal fiscal year (FY).
As the lead agency in Ohio, the State agency must oversee the CCDF program to ensure that
funds are expended in accordance with Federal requirements.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   i
HOW WE CONDUCTED THIS REVIEW

We reviewed $41,478,916 ($38,433,948 Federal share) of expenditures that the State agency
claimed as CCDF quality activities during FYs 2007 through 2011. The expenditures that we
reviewed were charged through 35 separate cost pools. For each cost pool, we reviewed the
description of staff activities performed; a description of the State agency departments that
charged expenditures to each cost pool; and the allocation of expenditures to Federal, State, and
local programs according to the State agency’s cost allocation plan. Next, we determined
whether the expenditures in the 35 cost pools included administrative and other types of
expenditures unrelated to quality activities.

WHAT WE FOUND

Federal regulations limit the amount of CCDF funds that the State agency may claim for
administrative expenditures to 5 percent of the total amount of discretionary, mandatory, and
matching funds expended in a FY.

From FY 2007 through FY 2011, the State agency exceeded the 5-percent limit for claiming
CCDF administrative expenditures by a total of $3,164,630 (Federal share). Of the $41,478,916
($38,433,948 Federal share) that the State agency classified as quality activities expenditures on
its ACF-696 reports, $32,490,668 ($30,105,451 Federal share) was allowable. However, the
State agency misclassified the remaining $8,988,248 ($8,328,497 Federal share) as quality
activities expenditures when they should have been classified as administrative expenditures.
The State agency’s review of cost pool allocations did not identify the improper classification of
administrative expenditures. The State agency indicated that it would take corrective action to
address these errors after we brought them to its attention. Although the State agency
misclassified administrative expenditures totaling $8,328,497 (Federal share), only $3,164,630
(Federal share) of that amount exceeded the 5-percent limit for administrative expenditures and
was unallowable.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $3,164,630 in cost pool expenditures that exceeded the 5-percent CCDF
        administrative limit and

    •   take corrective actions to ensure that cost pool expenditures are properly claimed on the
        ACF-696 report.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and stated that it has instituted new procedures to ensure that the cost pool expenditures are
properly claimed on the ACF-696 report. However, the State agency proposed that it be allowed



Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   ii
to reclassify the 2011 findings, totaling $526,637. Additionally, the State agency requested a
waiver totaling $2,637,993 for the 2007 and 2008 findings, as the FY is closed.

As the action official, ACF will make final determination as to actions taken on all matters
reported and the State agency’s proposed reclassification of costs and waiver.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   iii
                                                          TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review. ........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 The Child Care and Development Fund Program:
                   Purpose of the Program, How It Is Administered, and
                   How States Report Their Expenditures.......................................................1
                  The State Agency Uses Cost Pools To Allocate
                   Indirect Expenditures ..................................................................................2

           How We Conducted This Review..............................................................................2

FINDING ...............................................................................................................................3

           State Agency Exceeded the 5-Percent Limit for Child Care and
             Development Fund Administrative Expenditures ...................................................3

RECOMMENDATIONS .......................................................................................................5

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................5

APPENDIXES

           A: Federal Requirements for the Child Care and Development
              Fund Program.......................................................................................................6

           B: Audit Scope and Methodology.............................................................................9

           C: State Agency Comments ......................................................................................10




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)                                            iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

Under the Child Care and Development Fund (CCDF) program, States must spend no more than
5 percent of their total CCDF funding on administrative expenditures. In a previous audit, we
found that the Ohio Department of Job and Family Services (State agency) may have improperly
claimed administrative expenditures. 1 This issue was outside the scope of the previous audit and
is the focus of this review.

OBJECTIVE

Our objective was to determine whether the State agency exceeded the 5-percent limit for
claiming CCDF administrative expenditures.

BACKGROUND

The Child Care and Development Fund Program: Purpose of the Program, How It Is
Administered, and How States Report Their Expenditures

The CCDF has made available $5.2 billion in block grants to States, territories, and tribes in
fiscal year (FY) 2012. This program, authorized by the Child Care and Development Block
Grant Act of 1990, as amended, (P.L. No. 101-58, 42 USC § 9858) and the Social Security Act,
section 418, assists low-income families, families receiving temporary public assistance, and
families transitioning from public assistance to obtain childcare so that they may work or attend
training or education.

The CCDF program consists of discretionary, mandatory, and matching funds for direct services,
nondirect services, 2 “quality activities,” 3 and administration costs. The program is administered
at the Federal level by the U.S. Department of Health and Human Services, Administration for
Children and Families (ACF). Discretionary and mandatory funds are 100-percent federally
funded; matching funds are based on the State’s Federal medical assistance percentage, which
varies depending on the State’s relative per capita income.

The CCDF is the primary Federal program specifically devoted to providing families with child
care subsidy and supports to improve quality of care. Under the CCDF program, States have
considerable latitude in implementing and administering their childcare programs. Each State
must develop, and submit to ACF for approval, a State plan that identifies the purpose for which

1
 Ohio Properly Obligated and Liquidated Targeted Funds Under the Child Care and Development Fund Program
(A-05-12-00061, issued April 26, 2013).
2
 Nondirect services are child care program costs that are not direct services to families, that are not quality or
construction expenditures, and that are not considered administrative costs under the CCDF regulations.
3
 Quality activities provide comprehensive consumer education, increase parental choice, and improve the quality
and availability of child care.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)                    1
CCDF funds will be expended for quality activities. CCDF quality activity expenditures must be
used for activities that improve the availability and quality of childcare and may not be used for
the overall administration of the program. Administrative expenditures include salaries and
related costs of the staff of the lead agency or other agencies engaged in the administration and
implementation of the program, among other expenditures. States must spend no more than
5 percent of their total CCDF funding on administrative expenditures. 4

In addition, States are required to report expenditures of quality activities, administrative
activities, and nondirect services on the quarterly Child Care and Development Fund ACF-696
Financial Report (ACF-696 report), which is a cumulative report for the Federal FY. Appendix A
includes examples of allowable activities and services. As the lead agency in Ohio, the State
agency must oversee the CCDF program to ensure that funds are expended in accordance with
Federal requirements.

The State Agency Uses Cost Pools To Allocate Indirect Expenditures

Cost pools contain shared costs that are incurred for a common purpose and benefit more than
one program. State agency expenditures consist of (1) direct expenditures, which are charged to
a specific program, and (2) indirect expenditures, which are allocated to two or more programs.
Indirect expenditures include CCDF expenditures for quality activities, administrative activities,
and nondirect services. The State agency uses cost pools to allocate these indirect expenditures
according to its cost allocation plan.

HOW WE CONDUCTED THIS REVIEW

We reviewed $41,478,916 ($38,433,948 Federal share) of expenditures that the State agency
claimed as CCDF quality activities during FYs 2007 through 2011. The expenditures that we
reviewed were charged through 35 separate cost pools. For each cost pool, we reviewed the
description of staff activities performed; a description of the State agency departments that
charged expenditures to each cost pool; and the allocation of expenditures to Federal, State, and
local programs according to the State agency’s cost allocation plan. Next, we determined
whether the expenditures in the 35 cost pools included administrative and other types of
expenditures unrelated to quality activities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains Federal requirements for the CCDF program. Appendix B contains the
details of our scope and methodology.



4
    45 CFR § 98.52(a).




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   2
                                                      FINDING

STATE AGENCY EXCEEDED THE 5-PERCENT LIMIT FOR CHILD CARE AND
DEVELOPMENT FUND ADMINISTRATIVE EXPENDITURES

Federal regulations limit the amount of CCDF funds that the State agency may claim for
administrative expenditures to 5 percent of the total amount of discretionary, mandatory, and
matching funds expended in a FY. 5

From FY 2007 through FY 2011, the State agency exceeded the 5-percent limit for claiming
CCDF administrative expenditures by a total of $3,164,630 (Federal share). Of the $41,478,916
($38,433,948 Federal share) 6 that the State agency classified as quality activities expenditures on
its ACF-696 reports, $32,490,668 ($30,105,451 Federal share) 7 was allowable. However, the
State agency misclassified the remaining $8,988,248 ($8,328,497 Federal share) 8 as quality
activities expenditures when they should have been classified as administrative expenditures.
The State agency’s review of cost pool allocations did not identify the improper classification of
administrative expenditures. The State agency indicated that it would take corrective action to
address these errors after we brought them to its attention. Although the State agency
misclassified administrative expenditures totaling $8,328,497 (Federal share), only $3,164,630
(Federal share) of that amount exceeded the 5-percent limit for administrative expenditures and
was unallowable. The table summarizes our calculation of the unallowable amount.

                         Unallowable CCDF Administrative (Admin) Expenditures

                                         Admin
                                                                                                Exceeded the
                   Admin              Improperly          Total Admin
                                                                                  Allowable      5-Percent
                 Claimed on           Claimed as           (Including
     FY                                                                           5-Percent        Limit
                  ACF-696                Quality          Improperly
                                                                                    Limit         (Federal
                  Reports               (Federal            Claimed)
                                                                                                   Share)
                                         Share)
    2007        $12,070,372            $1,580,997          $13,651,369            $12,070,372    $1,580,997
    2008          11,534,181            1,529,851            13,064,032            12,007,036     1,056,996
    2009          12,069,396            2,087,907            14,157,303            15,499,506            0
    2010           5,704,393            1,262,108             6,966,501            11,926,877            0
    2011          10,802,241            1,867,634            12,669,875            12,143,238      526,637
    Total       $52,180,583            $8,328,497          $60,509,080            $63,647,029    $3,164,630

5
    45 CFR § 98.52(a).
6
    These expenditures were allocated through 35 quality activities cost pools.
7
    These expenditures were allocated through 8 of the 35 cost pools.
8
    These expenditures were allocated through 27 of the 35 cost pools.


Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)             3
The following are examples of the 27 cost pools from which administrative expenditures were
improperly allocated to the CCDF program as quality activities:

    •   State-Level Indirect Cost Pool – This cost pool includes all staff payroll and fringe
        benefits, as well as general operating expenses associated with the State agency that
        provide administration and support at the State level and county level for all programs.
        General operating expenses include personal service contracts for temporary
        administrative staff, general office supplies, travel, and depreciation charges related to
        office equipment.

    •   Commercial Leases Cost Pool – This cost pool includes facility costs for all buildings
        commercially leased by the State agency. The State agency identified these costs as rent,
        maintenance, utilities, renovation expenses, depreciable equipment, and other related
        facility costs.

    •   Ohio Building Authority Leased Cost Pool – This cost pool includes costs for all facilities
        leased from the Ohio Building Authority. The State agency identified these costs as rent,
        maintenance, utilities, renovation expenses, depreciable equipment, and other related
        facility costs.

Furthermore, the descriptions of staff activities performed for the 27 cost pools were for
administrative purposes. Below are examples of the types of activities performed by staff in
State agency departments that charged expenditures to the cost pools that included expenditures
incorrectly claimed as quality activities.

    •   Office of Families and Children – Family Assistance Cost Pool:
           o Department staff assume the primary responsibility for the overall administration
               of the Temporary Assistance for Needy Families program (including all of its
               components), the food assistance program, the refugee program, and childcare.

    •   Children and Families Cost Pool:
           o Department (1) – staff provide the State agency operational support services by
               managing the State agency forms program; publishing administrative rules and
               program policy handbooks and handbook updates; and monitoring the agency's
               record warehouse and pickup and delivery of internal mail, including printing.
           o Department (2) – staff oversee the administration of Ohio’s child and adult
               protection services programs; adoption services programs; and childcare
               programs, including health and safety regulations. Additional staff oversee the
               department budget; advocate State agency policies in legislative proceedings;
               represent and explain programs, policies, and activities to the general community;
               and work with county partners and the Federal Government.

    •   Call/Processing Centers Cost Pool:
           o Department staff provide administrative support benefiting several State and
               Federal programs.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)    4
                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $3,164,630 in cost pool expenditures that exceeded the 5-percent CCDF
        administrative limit and

    •   take corrective actions to ensure that cost pool expenditures are properly claimed on the
        ACF-696 report.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our recommendations
and stated that it has instituted new procedures to ensure that the cost pool expenditures are
properly claimed on the ACF-696 report. However, the State agency proposed that it be allowed
to reclassify the 2011 findings, totaling $526,637. Additionally, the State agency requested a
waiver totaling $2,637,993 for the 2007 and 2008 findings, as the FY is closed.

The State agency’s comments appear in their entirety as Appendix C.

As the action official, ACF will make final determination as to actions taken on all matters
reported and the State agency’s proposed reclassification of costs and waiver.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   5
        APPENDIX A: FEDERAL REQUIREMENTS FOR THE CHILD CARE AND
                       DEVELOPMENT FUND PROGRAM

QUALITY ACTIVITIES

Federal regulations (45 CFR § 98.51(a)) state that activities to improve the quality of childcare
may include, but are not limited to, the following:

    •   activities designed to provide comprehensive consumer education to parents and the
        public;

    •   activities that increase parental choice;


    •   activities designed to improve the quality and availability of childcare including, but not
        limited to:


            o operating directly or providing financial assistance to organizations (including
              private nonprofit organizations, public organizations, and units of general purpose
              local government) for the development, establishment, expansion, operation, and
              coordination of resource and referral programs specifically related to childcare;

            o making grants or providing loans to childcare providers to assist such providers in
              meeting applicable State, local, and tribal childcare standards, including
              applicable health and safety requirements;

            o improving the monitoring of compliance with, and enforcement of, applicable
              State, local, and tribal requirements;


            o providing training and technical assistance in areas appropriate to the provision of
              childcare services, such as training in health and safety, nutrition, first aid, the
              recognition of communicable diseases, child abuse detection and prevention, and
              care of children with special needs;


            o improving salaries and other compensation (such as fringe benefits) for full- and
              part-time staff who provide childcare services; and


            o any other activities that are consistent with the intent of this section.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   6
ADMINISTRATIVE ACTIVITIES

Federal regulations (45 CFR § 98.52(a)) state that not more than 5 percent of the aggregate funds
expended by the Lead Agency from each FY’s allotment, including the amounts expended in the
State pursuant to § 98.53(b), shall be expended for administrative activities.

Administrative activities include salaries and related costs of the staff of the Lead Agency or
other agencies engaged in the administration and implementation of the program. Program
administration and implementation include the following activities:

    •   planning, developing, and designing the CCDF program;

    •   providing local officials and the public with information about the program, including the
        conduct of public hearings;

    •   preparing the application and plan;

    •   developing agreements with administering agencies to carry out program activities;

    •   monitoring program activities for compliance with program requirements;

    •   preparing reports and other documents related to the program for submission to the
        Secretary;

    •   maintaining substantiated complaint files;

    •   coordinating the provision of CCDF services with other Federal, State, and local
        childcare, early childhood development programs, and before- and after-school care
        programs;

    •   coordinating the resolution of audit and monitoring findings;

    •   evaluating program results and managing or supervising persons with responsibilities
        described above;

    •   travel costs incurred for official business in carrying out the program;

    •   administrative services, including such services as accounting services, performed by
        grantees or subgrantees or under agreements with third parties;




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   7
    •   audit services;

    •   cost for goods and services required for the administration of the program, including
        rental or purchase of equipment, utilities, and office supplies; and

    •   indirect costs as determined by an indirect cost agreement or cost allocation plan.

NONDIRECT SERVICES

According to the preamble to the final CCDF rule (63 Fed. Reg. 39936, 39962 (July 24, 1998)),
administrative costs do not include:

    •   eligibility determination and redetermination;

    •   preparation and participation in judicial hearings;

    •   childcare placement;

    •   recruitment, licensing, inspection, reviews, and supervision of childcare placements;

    •   rate setting;

    •   resource and referral services;

    •   training of childcare staff; and

    •   the establishment and maintenance of computerized childcare information systems.




Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   8
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $41,478,916 ($38,433,948 Federal share) of expenditures claimed by the State
agency as CCDF quality activities during FYs 2007 through 2011. The expenditures that we
reviewed were charged through 35 separate cost pools. For each cost pool, we reviewed the
description of staff activities performed; a description of the State agency departments that
charged expenditures to each cost pool; and the allocation of expenditures to Federal, State, and
local programs according to the State agency’s cost allocation plan. Next, we determined
whether the expenditures in the 35 cost pools included administrative and other types of
expenditures unrelated to quality activities.

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
reviewed only the internal controls that pertained to our objective.

We performed our fieldwork at the State agency’s office in Columbus, Ohio, from January
through March 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws, approved Ohio CCDF State plans, and cost allocation plans;

    •   interviewed State agency staff to obtain an understanding of how cost pool expenditures
        were claimed on the ACF-696 reports;

    •   reviewed and reconciled a list of cost pool expenditures claimed on the ACF-696 reports
        as CCDF quality activities;

    •   determined the total amount of cost pool expenditures that the State agency should have
        claimed as administrative expenditures or nondirect services;

    •   reviewed the ACF-696 reports for FYs 2007 through 2011 to determine the amount of
        administrative expenditures that the State agency claimed; and

    •   calculated the amount the State agency exceeded the 5-percent CCDF limit for claiming
        administrative expenditures for FYs 2007 through 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


Ohio Exceeded the 5-Percent Admin Limit for Claiming Child Care Development Funds (A-05-13-00014)   9
                         APPENDIX C: STATE AGENCY COMMENTS 




               Ohio                 Department of
                                    Job and Family Services
                                    John R. Kasich, Governor 

                                    Michael B. Colbert. Director 





               September 14, 2013


               Report Nlll11ber: A-05-13-000 14


               Ms. Sheri L Fulcher, Regional Inspector General for Audit Services
               Office of Audit Services, Region V
               233 North Michigan Ave, Suite 1360
               Chicago, IL 60601

               Dear Ms. Fulcher:

               Please accept this letter as Ohio's response to the draft OIG Audit report listed above.
               Ohio concurs with the recommendations identified in the report.

               In recommendation 1, the OIG has determined Ohio exceeded the 5-percent limit for
               claiming CCDF administrative expenses. The audit reviewed the time period of FFY
               2007-2011, and the auditors identified three fiscal years in which Ohio had exceeded the
               limit. However, Ohio was well under the 5-perecent limit in the two remaining years.

               The OIG has identified $3,164,630 in expenditures which exceeded the 5-perecent limit.
               Ohio will propose to HHS that it be allowed to reclassifY the findings for 2011, $526,637.
               For the remainder of the total $2,637,993 constituting FY2007 and 2008, Ohio is
               requesting a waiver for these costs as the fiscal year is closed.

               In recommendation 2, the OIG has requested that Ohio institute a corrective action to
               ensure that the cost pool expenditures be properly claimed on the ACF-696 report. Ohio
               has instituted new procedures, a copy of the policy and procedure (Attachment A) is
               attached to this response. In addition, Ohio has taken the necessary steps to assure that
               FY 12 and 13 have been corrected.

               Ohio would like to thank the OIG for this opportunity to comment on the report. If you
               have any addition questions about this response, please contact Al Hanunond, Acting
               Bureau Chief, at 614-752-3140 or through email at al.hammond@jfs.ohio .gov.




                                                       30 East Broad Street
                                                      Columbus, Ohio 43215
                                                           jfs.ohio.gov

                                     An Equal Opportunity Employer and Service Provider




Ohio Exceeded the 5-PercentAdmin Limitfor Claiming Child Care Development F unds (A-05-13-00014)            10
               Sincerely,




               Eric Mency, Chief Financial Oftlcer
               Ohio Department of Job and Family Services

               Encl<)sures
               Cc: Michael B. Colbert, Director, ODJFS
               Michael McCreight, Assistant Director, ODJFS
               Kara Bertke Wente, Deputy Director, OFA, ODJFS
               John Maynard, Assistant Deputy Director, OFMS, OD.TFS
               Janet Histead, Assistant Deputy Director, OFMS, ODJFS
               Marvene Mitchell, Bureau Chief, OFMS, ODJFS
               Kurtis Wingo, Bureau Chief, ODJFS
               Alfred Hammond, Acting Bureau Chief, OF MS, ODJFS
               Mike Ba1tou, Audit Manager, HHS, OIG




Ohio Exceeded the 5-Percent Admin limit.for Claiming Child Care Development Funds (A-05-13-00014)   11
                                                   Attachment A

      While the Office oflnspector General was conducting their review of FFY 2007-2011 child care quality
      expenditures it became apparent that the review report would include findings stating that previously claimed
      quality expenditures should have b een treated as administrative expenditures. 111e expenditures in question
      were a result of how Ohio treated indirect cost associated with reporting category Quality not Eannarked (JFS
      cost pool JFSCCl 0330) that is claimed on line I b on the ACF-696 financial reporting :fom1 for the Child Care
      and Development Fund (CCDF). In order to address this iss ue the ODJFS Office of Fiscal Services/ Bureau of
      Budget and Cost Management, begitming with the October- December 2012 quat1er, removed Quality not
      Eannarked (JFSCC10330) from aJI cost pools except Bureau ofChildcare Cost Pool (JFS0018200) and
      Production Mail Cost Pool (JFS0020400).

      111e following table includes ail 34 cost pools in which JFSCCJ 0330 appeared from October 2007 thru
      September 2012 that have had Quality not Earmarked (JFSCC10330) removed as of the October- December
      201.2 quarter .

      .TF$0010300 LEGAL & ACQUlSrilON SVCS POOL 

      .TFS0010400 LEGAL SERVICES POOL 

      JFS0010600 CONTRACTS & ACQUlSITIONS SVCS POOL 

                   OFFICE OFFAMILIES AND CHILDREN ADMIN & FISCAL 

      JFS0011300 ACCOUNTABLTY 

      JFS0012700 FAMILIES & CHILDREN ADMIN POOL 

      .TF$0012900 Ci'ULDREN &FAMILIES POOL 

       JF$001 4400 CALL CENTERS/PROCESSING CTRS POOL 

      .TFSOOJ 5900 LOCAL OPERATIONS POOL 

      JFS0016800 RACE TO THE TOP POOL 

      JFS0017500 BUREAU SERVICES TO FAMILIES POOL 

      JFS0018400 MIS ENTERPRISE POOL 

      JFS0018900 BUREAU OF PROGRAM INTEGRETY POOL 

       JFS0019000 QUALITY ASSESSMENT SECTION 1 POOL 

      JFS0019200 CHILD WELFARE SYSTEM POOL 

      .TFS0020600 STAlE LEVEL INDIRECT POOL 

       .TFS0020900 LOCAL OPERATIONS CALL CENTER POOL 

      .IFS0021000 AUTOiv!ATED SYSTEMS POOL 

      JFS0022600 OFC FAMILY SERVICES POOL 

      JFS0022700 OFC FAMILY ASSISTANCE POOL 

      JFS0023000 NETWORK/ ADHOC POOL 

      .TFS0023600 STATEWIDE IND!RCT POOL 

      .TFS0023700 INFORMATION SERVICES POOL 

      JFS0023900 CHILD CARE AND EARLY DEVELOPMENT POOL 

                   FA?vllLIES AND CI-IILDREN ADOPTION & MEP A POLICY 

      JFS0024000 POOL 

                   OFFICE OF RESEARCH ASSESSMENT AND 

      JFS0026000 ACCOUNTABILITY 

      JFS0026100 GRANTS MANAGEMENT AND FEDERAL REPORTING 





Ohio Exceeded the 5-Percent Admin limit.for Claiming Child Care Development Funds ~-05-13-00014)                       12
          JFS0027000              STATE OWNED BUILDING RENT POOL
          JFS0027100              OHIO BUILDING AUTHORITY LEASE RENT POOL 

          JFS0027200              COMMERICAL LEASES RENT POOL 

          JFS0027400              SERVICES TO EMPLOYERS POOL 

          JFS0027500              CHIEF OF STAFF POOL 

          JFS0027700              OHIO SHARED SERVICES POOL 

          JFS0028600              BUREAU OF AUDIT POOL 

          JFS0028700              MONITORING & CONSULTING SERV ICES POOL 



      Below is a screen print ofCAPIS Cost Allocation for Cost Pool relationships for the reporting chartfield JFSC C 10330 for
      quarter October- December 2012, showing the changes made that now only allows the 2 cost pools identified
      above eligible for expenditures charged to Quality not Earmarked.

          ~                                                                    SettmgsforEASTEK Cap Versl on Oct-Dec 20 12 Official F inal v_2                                     Oct-) ec 2012 Official Final v_1


             • I
          Oh 10               Department of
                              Job and Family Services                               CAPIS                                                Cap; OCt-Dec 2012 Offieilll Filla! v.2 firlali zedat 1/1812013 4:22: 54 PM
                                                                                                                                         Acr: Oc t-Dec 20 12 OffiCial Final v.1 finalized at 1/18120 13 4:4 3:49 PM
                              Flauls.Mo::H

                 Payroll    Business Rules

      Cost Pool Reporting - Yalidated
                                             Cost Aitocat io n   GrantMgmt      ACRData     ACRResults      •
      I Ba~e(907)     W•@•JM-j§§jtijUM


               JFS0018200   Cost Pooi-82 -BUR OF CHilD CARE      JFSC00330    CC-M&M-QualityNotEarMk-Disc    Y      A       7!1Jl007          S~tem     Edit   Delete

               JF~2G400     Cost Poo i-04-PROOUCTION MAIL        JFSCC10330   CC-M&M-QualityNotEarMk-Disc    Y              7/l/2f.XJ7        System
                                                                                                                                                                              ...
                                                                                                                                                        Edft Delete Hold Releast



      I   Base(907)   Wl.Q,({MMGJMbUI'M
      ~ Excel -~ PDF




Ohio Exceeded the 5-PercentA dmin Limit for Claiming Child Care Development Funds (A -05-1 3-00014)                                                                                                                   13
